W                                                                   September 24, 1999


TO:           AA/Director, Johnson Space Flight Center
              DA01/Director, Marshall Space Flight Center

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Report on the Audit of Environmental Aspects of External Tank
              Contract NAS8-36200
              Assignment Number A-HA-98-051
              Report Number IG-99-051

The subject final report is provided for your use and comments. Please refer to the Results in
Brief section for the overall audit results. Our evaluation of your response is incorporated into
the body of the report. Your comments on a draft of this report were responsive for
recommendation 1 but were nonresponsive for recommendation 2. For recommendation 1, we
request that you notify us of the actions taken, including the extent of testing performed to
ensure corrective actions are effective. As discussed in the report, we request that the Director,
Johnson Space Flight Center, provide comments on recommendation 2 by October 25, 1999.
The comments should specify the corrective actions that are planned, ongoing, and completed.
All recommendations remain open.

If you have questions concerning the report, please contact Mr. Chester Sipsock, Program
Director for Environmental and Financial Management Audits, at (216) 433-8960, or Mr. Rick
Lester, Auditor-in-Charge, at (256) 544-1150. We appreciate the courtesies extended to the
audit staff. The report distribution is in Appendix E.

[original signed by]
Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
J/Associate Administrator for Management Systems
M/Associate Administrator for Space Flight
R/Associate Administrator for Aero-Space Technology
JM/Director, Management Assessment Division
bcc:
AIGA, IG, Reading Chrons
JE/Director, Environmental Management Division
MA/Space Shuttle Program Manager
W/L. Ball
   R. Lester
   C. Sipsock
JSC/ BV2/Shuttle Acquisition Management Office/Nancy Liounis
MSFC/GP40/External Tank Contracting Officer
MSFC/SA31/External Tank Project Manager
MSFC/SA39/NASA Michoud Resident Manager
MSFC/RS40/Audit Liaison Representative
                                                         IG-99-051




AUDIT
                              ENVIRONMENTAL ASPECTS OF
REPORT                         EXTERNAL TANK CONTRACT
                                      NAS8-36200

                                    September 24, 1999




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        NASA Headquarters
        Code W, Room 8V69
        300 E Street, SW
        Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to
the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.




Acronym

FAR         Federal Acquisition Regulation
                           NASA Office of Inspector General

IG-99-051
 A-HA-98-051                                                             September 24, 1999

                           Environmental Aspects of External Tank
                                 Contract NAS8-36200


Introduction

The current external tank contract (NAS8-36200) was awarded November 2, 1984, with a total
contract award amount through August 31, 2001, of about $3.6 billion. Under the contract,
Lockheed Martin Corporation will produce external tanks at the NASA Michoud Assembly
Facility (Michoud), New Orleans, Louisiana, into the year 2001. Although NASA owns
Michoud, the contractor runs the facility as a “Government-owned, contractor-operated”
operation responsible to NASA management at the Marshall Space Flight Center.

Manufacturing processes at Michoud require the use of toxic and hazardous chemicals. Since
1987, pollution prevention and waste minimization activities at Michoud have significantly
reduced toxic pollutants associated with external tank manufacturing processes. However, the
production of the external tank for the Space Shuttle still presents potential for environmental
impact.

The objective of this audit was to determine whether appropriate clauses governing
environmental requirements were included in the Space Shuttle external tank production
contract. Details on our scope and methodology are in Appendix A.

Results in Brief

The current external tank contract has not been modified to incorporate the Federal waste
reduction program as set forth under Federal Acquisition Regulation (FAR) Part 52.223-10.
Consequently, adverse environmental impact may not be minimized and potential recycling
benefits cannot be realized.

Background

Martin Marietta, now Lockheed Martin, has been the Space Shuttle external tank contractor since
NASA first began producing the tanks at Michoud in 1973. The external tank provides fuel to
the Space Shuttle main engines during the vehicle’s initial ascent. The Shuttle external tank
compartments hold both liquid hydrogen and liquid oxygen. If minute amounts of contaminants,
particularly industrial greases, were to remain in any of the external tank compartments, the
potential for an explosion would be very high. Trichloroethylene is one of the most effective
metal cleaning and degreasing solvents available and has been the preferred NASA degreasing
solvent for the external tank components. However, it is also very toxic to the environment and
to all life forms.1 During the mid 1960’s, when a previous NASA contractor was building
components for the Apollo Program, 16,000 gallons of trichloroethylene spilled into the
groundwater at Michoud. NASA spends about $2 million annually on environmental activities at
Michoud, a large part of which is spent cleaning up the groundwater and soil.

NASA and the contractor have worked to reduce the amount of trichloroethylene contamination
at Michoud. Currently, 900 pounds is being released annually into the environment, compared to
200,000 pounds annually as of 1985. Neither the Environmental Protection Agency nor the
Louisiana Department of Environmental Quality have noted discrepancies at or assessed fines or
penalties to Michoud during the last 5 years. The contractor has managed environmentally
hazardous materials so that potential liability from environmental contamination has been
effectively minimized. Additional accomplishments by Lockheed Martin at Michoud are
presented in management’s response to this report (see Appendix C).

Attention to hazardous wastes and associated environmental remediation are major requirements
of national environmental policy, but waste reduction, pollution prevention, and use of recycled
products are also important requirements. The FAR implements national environmental policy
for Federal procurement activities.




1
 Trichloroethylene is a potent neurotoxin, which is known to cause cancer and reproductive mutations. Severe over-
exposure is rapidly fatal. Less severe exposure can result in damage to the liver and kidneys, birth defects, and
varying degrees of nervous system damage such as memory loss. Toxic ecological effects include death of animals,
birds, fish, and plants. Long-term ecological effects may include shortened lifespan, reproductive problems, cancer,
changes in appearance and behavior of animals, and slow growth of plants.


                                                         2
Waste Reduction Program at Michoud

Finding. The Lockheed Martin external tank contract has not been modified to incorporate the
FAR waste reduction program contract provision (FAR 52.223-10). Such a provision could help
ensure an effective waste reduction program at Michoud. The FAR requires contractors to
modify their operations to eliminate or reduce the amount of waste generated and to increase the
use of recycled products. Without this program, the Michoud operation may not be
environmentally compliant.

Federal Requirements

FAR part 52.223-10 requires contractors to establish a waste reduction program to promote cost-
effective waste reduction in all operations and facilities covered by the contract (see Appendix
B). The program should incorporate waste prevention and recycling into all operations by
requiring acquisition of environmentally preferable products and services. Under the program,
product specifications would be revised to promote procurement of products that are
environmentally preferable or made from recovered materials.

The FAR requirement became effective in October 1997, 13 years after the award of contract
NAS8-36200. However, FAR part 23.7052 requires that, where economically feasible, existing
contracts for contractor operation of Government-owned or leased facilities should be modified
to provide for cost-effective waste reduction (see Appendix B). Marshall procurement officials
stated that the required contract modification was overlooked due to reassignment of personnel
and reductions in the procurement staff.

Waste Reduction Program Practices

Adding the requirement for a waste reduction program would be an important step in ensuring
that the contractor pursues environmentally friendly practices. Under the program, the contractor
must seek ways to prevent pollution. Where pollution cannot be prevented, the contractor should
minimize the adverse environmental impact by recycling waste products. The contractor’s
purchases and subcontract specifications should favor environmentally preferable items and
items made from recycled materials, when economically feasible. The contractor’s participation
in a waste reduction program would also assist NASA in meeting the Agency’s goal of achieving
environmental excellence at all its installations.

A Johnson Space Center Shuttle procurement official and the NASA Headquarters
Environmental Management Division Director stated that the FAR clause will be incorporated
into the Space Flight Operations Contract when the Shuttle contract is modified to include the
external tank. The contract modification is scheduled for July 1, 2000. However, consistent with

2
 FAR parts 23.705 and 52.223.10 reference Executive Order 12873, which was replaced by Executive Order 13101,
on September 14, 1998. Executive Order 13101, “Greening the Government through Waste Prevention, Recycling,
and Federal Acquisition,” establishes broad-based requirements for Federal agencies to incorporate waste reduction
activities in daily operations. Appendix B provides further details on the Executive Order requirements.



                                                         3
FAR part 23.705, contract NAS8-36200 should be modified now, if economically feasible, to
include the waste reduction program requirement so that the benefits of the program will be
realized at the earliest available opportunity.

Management's Comment on the Finding

Management did not agree that the FAR required the waste reduction program clause if
economically feasible in existing contracts because of deletion of the clause in Executive Order
13101. Our evaluation of management's position is in Appendix D.

Recommendations, Management’s Response, and Evaluation of Response

1. The Director, Marshall Space Flight Center, should direct the contracting officer for
   contract NAS8-36200 to determine the economic feasibility of requiring the contractor
   to establish a waste reduction program at Michoud prior to the consolidation of this
   contract with the Space Flight Operations Contract. If economically feasible, the
   contracting officer should add to the existing external tank contract the requirements
   contained in FAR 52.223-10.

Management’s Response. Concur with the recommendation’s intent, subject to economic
feasibility. Based on a preliminary analysis, management believes it will be feasible to add the
FAR clause to the contract. The complete text of management’s response is in Appendix C.

Evaluation of Response. The actions planned by management are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until management completes its feasibility assessment and takes appropriate action.

2. The Director, Johnson Space Center, should ensure that the requirement for a waste
   reduction program is included in the July 1, 2000, contract modification.

Management’s Response. Concur with the recommendation’s intent, subject to economic
feasibility. Management suggested consolidating this recommendation with recommendation 1.
The consolidated recommendation should state that the Director, Marshall Space Flight Center,
should direct the contracting officer for the external tank contract to determine the economic
feasibility of incorporating FAR 52.223-10 into the appropriate contract as soon as practical. The
external tank production contract is now scheduled to be incorporated into the Space Flight
Operations contract on July 1, 2000. More important, however, responsibility for the Michoud
Assembly Facility will remain with Marshall. The complete text of management’s response is in
Appendix C.

Evaluation of Response. We consider management’s response to be nonresponsive and the
recommendation unresolved, notwithstanding management's concurrence with the intent of the
recommendation. The recommendation is directed to the Director, Johnson Space Center,
because there is no assurance that the consolidated contract would necessarily include the FAR
clause even if Marshall management was to decide that it is economically feasible to include


                                                 4
such a clause in the existing contract. Although management pointed out that administration and
support services for the Michoud Assembly Facility will remain with Marshall, the external tank
manufacturing contract is expected to become part of the Space Flight Operations contract,
which
was awarded by Johnson. Thus, the Director of Johnson ultimately will be responsible for
negotiating and administering the new contract. We, therefore, reaffirm our recommendation and
request that the Director, Johnson Space Center, provide management’s position on
recommendation 2.




                                               5
                  Appendix A. Objective, Scope and Methodology

Objective

The objective of the audit was to determine whether appropriate Federal environmental
requirements were included in contract NAS8-36200. This audit effort resulted from work
performed for the “Audit of Selected Contracts for Environmental Compliance,” Assignment
Number A-HA-98-021.

Scope and Methodology

During the audit, we:

    •   Reviewed the NASA external tank contract (NAS8-36200) to determine the
        environmental contract terms that had been incorporated into the contract provisions.

    •   Reviewed the FAR to determine which environmental clauses must be included in
        NASA contracts.

    •   Interviewed the NASA external tank contracting officer to identify FAR environmental
        clauses that do not apply to the contract.

    •   Interviewed contractor personnel to determine the extent to which they have
        accomplished the requirements of the relevant FAR environmental clauses.

Management Controls

We reviewed management controls relative to the inclusion of required environmental contract
clauses in contract NAS8-36200. We considered the controls adequate except as discussed in the
finding.

Audit Field Work

We performed field work from August 1998 through July 1999. We performed the audit in
accordance with generally accepted government auditing standards.




                                               6
                  Appendix B. Federal Environmental Requirements

Federal Acquisition Regulation (FAR) Provisions

The following two FAR citations address the requirement for contractors to implement waste
reduction efforts in performing contracts that could have an environmental impact.

FAR Paragraph 52.223-10—Waste Reduction Program

        As prescribed in 23.706, insert the following clause:

Waste Reduction Program (October 1997)

        (a)     Definition. “Waste reduction,” as used in this clause, means preventing or decreasing the
                amount of waste being generated through waste prevention, recycling, or purchasing
                recycled and environmentally preferable products.

        (b)     Consistent with the requirement of Section 701 of Executive Order 12873, the contractor
                shall establish a program to promote cost-effective waste reduction in all operations and
                facilities covered by this contract. Any such program shall comply with applicable
                Federal, State, and local requirements, specifically including Section 6002 of the
                Resource Conservation and Recovery Act (442 U.S.C. 6901, et seq.) and implementing
                regulations.

FAR Paragraph 23.705—Application to Government-owned or leased facilities

        Pursuant to Executive Order 12873, Section 701, every new contract for contractor operation of
        a Government-owned or leased facility shall require contractor programs to promote and
        implement cost-effective waste reduction in performing the contract. In addition, where
        economically feasible, existing contracts for contractor operation of Government-owned or
        leased facilities should be modified to provide for cost-effective waste reduction in contractor
        performance.

Executive Order 13101

        This Executive Order replaced Executive Order 12873 and is the basis for FAR
        52.223-10, Waste Reduction Program. The effective date of Executive Order
        13101 was September 14, 1998. Some key excerpts follow from the Executive
        Order as they apply to waste reduction programs.




                                                         7
Appendix B

     Section 101. Consistent with the demands of efficiency and cost effectiveness, the head of each executive
     agency shall incorporate waste prevention and recycling in the agency’s daily operations and work to
     increase and expand markets for recovered materials through greater Federal Government preference and
     demand for such products. It is the national policy to prefer pollution prevention, whenever feasible.
     Pollution that cannot be prevented should be recycled; pollution that cannot be prevented or recycled
     should be treated in an environmentally safe manner. Disposal should be employed only as a last resort.

     Section 102. Consistent with the policies established by the Office of Federal Procurement Policy Letter
     92-4, agencies shall comply with executive branch policies for the acquisition and use of environmentally
     preferable products and services and implement cost-effective procurement preference programs favoring
     the purchase of these products and services.

     Section 401. Acquisition Planning. Agencies shall consider: elimination of virgin material requirements;
     use of biobased products; use of recovered materials; reuse of product; life cycle cost; recyclability; use of
     environmentally preferable products; waste prevention; and ultimate disposal.

     Section 501. Specifications, Product Descriptions, and Standards. When developing, reviewing, or
     revising specifications agencies shall consider recovered materials and any environmentally preferable
     purchasing criteria developed by the Environmental Protection Agency, and shall ensure the criteria are
     complied with in developing or revising the standards. Agencies shall report annually to the Federal
     Environmental Executive on their compliance with this section, for inclusion in the biennial report to the
     President.

     Section 601. Each agency shall establish either a goal for solid waste prevention and a goal for recycling
     or a goal for solid waste diversion to be achieved by January 1, 2000. Specific goals for increasing use of
     recycled materials and for increasing use of environmentally preferable products and services shall be
     established. Progress on these goals shall be reported to the Federal Environmental Executive for
     inclusion in the biennial report to the President.

     Section 705. Each executive agency shall initiate a program to promote cost-effective waste
     prevention and recycling of reusable materials in all of its facilities.




                                                       8
Appendix C. Management’s Response




                9
     Appendix C




                  See OIG Comment
                  in
                  Appendix D




10
Appendix C




             11
     Appendix C




12
Appendix C




             13
                 Appendix D. OIG Comments on Management’s Response


Marshall management provided the following general comment in its response to the draft report.
Our response to the comment follows.

Management's Comment. The Office of Inspector General mistakenly asserts that the clause in
FAR Part 52.223-10, which is not included in Lockheed Martin’s contract, is required. In fact,
inclusion of the clause into existing contracts is discretionary. Neither the contractor nor NASA
has violated FAR requirements. The complete text of management’s response is in Appendix C.

OIG Comments. Management’s statement is based on the fact that the requirement to include
the clause in existing contracts was in Executive Order 12873, Section 701; however, the
requirement was not included in Executive Order 13101, which became effective September 14,
1998. Additionally, FAR Paragraph 23.705 has not been changed and still contains the
statement, “. . . where economically feasible, existing contracts for contractor operation of
Government-owned or leased facilities should be modified to provide for cost-effective waste
reduction in contractor performance.” Inclusion of the clause was never optional at the discretion
of the agency, rather it was, and remains, required, if economically feasible. Until the FAR
language is changed, it remains the policy to be followed by NASA contracting officers.
Therefore, we continue to affirm our conclusion that NASA is noncompliant with the FAR and
that determination of economic feasibility is required.

Management’s comments also do not consider that, prior to September 1998, NASA was
required by the FAR and Executive Order 12873 to have determined whether it was
economically feasible to include the FAR clause in the existing external tank contract. The
Agency did not make such a determination. As a result, the original intent of the FAR and the
Executive Order was never achieved for this contract. By the time Executive Order 13101 was
issued in September 1998, Executive Order 12873 had been in effect for 5 years and the FAR
language had been effective for 1 year requiring inclusion of the clause in existing contracts if
economically feasible. Therefore, existing contracts should have already been revised at the time
Executive Order 13101 was issued. This was not the case for contract NAS8-36200. While we
agree that Executive Order 13101 does not specifically require that the waste reduction clause
contained in the FAR be considered for existing contracts, the Executive Order does not preclude
NASA from making such a determination if it is in the best interests of the Agency and in our
view was premised on existing contracts already having been reviewed.




                                                14
                          Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight

NASA Centers

Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Counsel, Kennedy Space Center
Director, Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
  Budget
Branch Chief, Science and Space Programs Branch, Energy Science Division, Office of
  Management and Budget
Associate Director, National Security and International Affairs Division, Defense
  Acquisition Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies




                                             15
Appendix E
Chairman and Ranking Minority Member – Congressional Committee and
Subcommittees (Cont.)

Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                              16
Major Contributors to This Report

Chester A. Sipsock, Program Director for Environmental and Financial Management Audits

William R. Lester, Auditor-in-Charge

Annette Huffman, Program Assistant
